AUDIT OF THE OFFICE OF JUSTICE PROGRAMS NATIONAL

  INSTITUTE OF JUSTICE COOPERATIVE AGREEMENTS

 AWARDED TO THE SHERIFFS’ ASSOCIATION OF TEXAS

                  AUSTIN, TEXAS





             U.S. Department of Justice

           Office of the Inspector General

                    Audit Division

            Audit Report GR-60-13-002

                   December 2012

 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS NATIONAL

   INSTITUTE OF JUSTICE COOPERATIVE AGREEMENTS

  AWARDED TO THE SHERIFFS’ ASSOCIATION OF TEXAS

                   AUSTIN, TEXAS


                          EXECUTIVE SUMMARY


       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of two cooperative agreements
totaling $5,094,642, awarded by the Office of Justice Programs (OJP),
National Institute of Justice (NIJ) to the Sheriffs’ Association of Texas (SAT),
as shown in Exhibit 1.

EXHIBIT 1: COOPERATIVE AGREEMENTS AWARDED TO THE

           SHERIFFS’ ASSOCIATION OF TEXAS

                                        PROJECT        PROJECT
    AWARD NUMBER        AWARD DATE     START DATE      END DATE     AWARD AMOUNT
   2006-IJ-CX-K016       09/14/06       07/01/06       09/30/11     $ 4,609,496
   2009-IJ-CX-K017       09/23/09       10/01/09       09/30/11          485,146
                                                           Total:    $5,094,642
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing grants
for the implementation of these crime fighting strategies. To support this
mission, the NIJ provides objective and independent knowledge and tools to
reduce crime and promote justice, particularly at the state and local levels.

      Cooperative agreement 2006-IJ-CX-K016 provides for the operation
and maintenance of the Border Research and Technology Center (BRTC),
which provides science and engineering advice and support, technology
information, and outreach services on border-related issues, resulting in the
adoption of new tools and technologies for use by local law enforcement
agencies. The purpose of cooperative agreement 2009-IJ-CX-K017 was to
determine the need by the law enforcement community for lower cost
aviation platforms, then determining what technology might be required to
enhance the effectiveness of those platforms.
Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the cooperative agreements were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the cooperative agreements. The objective of the audit was to
review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) cooperative agreement expenditures,
including personnel and indirect costs; (4) budget management and control;
(5) property management; (6) program income; (7) financial and progress
reports; (8) cooperative agreement requirements; (9) program performance
and accomplishments; and (10) monitoring of subgrantees and contractors.
We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in this
report, the criteria we audit against are contained in the OJP Financial Guide
and the award documents.

      We examined the SAT’s accounting records, financial and progress
reports, and operating policies and procedures and found:

   •	 drawdowns were properly deposited, and were equal to the actual
      expenditures per accounting records;

   •	 cooperative agreement expenditures were within the 10-percent
      threshold allowed per the OJP Financial Guide for cooperative
      agreement 2006-IJ-CX-K016, but the general ledger for cooperative
      agreement 2009-IJ-CX-K017 was not organized to compare to the
      approved cooperative agreement budget (therefore, we could not
      verify if cumulative expenditures were within the 10-percent threshold
      allowed per the OJP Financial Guide);

   •	 the Financial Reports were submitted in a timely manner and reported
      expenditures were cumulatively accurate for cooperative agreement
      2009-IJ-CX-K017, but were not cumulatively accurate for cooperative
      agreement 2006-IJ-CX-K016;

   •	 the Progress Reports were generally submitted in a timely manner and
      were generally accurate for cooperative agreement 2009-IJ-CX-K017,
      but were not accurate for cooperative agreement 2006-IJ-CX-K016;
      and

   •	 there was no indication that SAT officials did not complete the goals
      and objectives of the Active Shooter Simulation Technology, FY 2008


                                      ii
     NIJ Applied Technologies Conference, License Plate Reader technology,
     and Low Cost Aviation Program areas mentioned for cooperative
     agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017; however, SAT
     officials did not demonstrate performance for the remaining objectives.

      The SAT did not have documented policies and procedures related to
accounting functions; however SAT’s accounting system provided for
segregation of duties and system security. However, we identified internal
control weaknesses, which resulted in: unsupported and unallowable direct
cost expenditures, unsupported indirect costs, inadequate property
management, inadequate budget oversight, no record of program income,
and a lack of documentation regarding proper approval of cooperative
agreement expenditures. Specifically, we found:

  •	 since SAT officials did not provide copies of contracts, we could not
     assess the adequacy of SAT’s monitoring activities or whether the
     requirements in the contracts were fulfilled;

  •	 instances where the appropriate SAT official did not provide written
     approvals for expenditures;

  •	 expenditures for which SAT officials did not provide complete and
     adequate supporting documentation, totaling $177,517, as well as
     $303,995 in unsupported contractor costs;

  •	 unallowable expenditures relating to telephone charges and computer
     purchases that were loaned to NIJ officials, totaling $5,907;

  •	 financial reports did not reflect program income generated by the sale
     of accountable property acquired using cooperative agreement funds;

  •	 SAT officials did not maintain property records relating to the
     management, sale, and disposal of accountable property acquired
     using award funds, including the sale price or method used to
     determine the market value of the asset, which resulted in
     unsupported accountable property costs, totaling $72,776; and

  •	 unsupported indirect cost charges, totaling $23,065.

      These items are detailed in the Findings and Recommendations section
of the report. Our audit objectives, scope, and methodology are discussed
in Appendix I.



                                     iii
                                       Table of Contents


INTRODUCTION ..........................................................................................1

  Background................................................................................................ 1

  Our Audit Approach ..................................................................................... 2

FINDINGS AND RECOMMENDATIONS ..........................................................4

 Prior Audits ................................................................................................ 4

   Single Audit............................................................................................. 4

   OJP Site Visits ......................................................................................... 5

 Internal Control Environment ....................................................................... 5

   Contractors ............................................................................................. 6

 Drawdowns ................................................................................................ 7

 Budget Management and Control .................................................................. 8

 Cooperative Agreement Expenditures .......................................................... 10

   Direct Costs .......................................................................................... 10

   Indirect Costs ........................................................................................ 13

 Property Management ............................................................................... 14

 Grant Reporting ........................................................................................ 15

   Financial Reporting................................................................................. 15

   Program Income .................................................................................... 16

   Categorical Assistance Progress Reports ................................................... 17

 Program Performance and Accomplishments ................................................ 18

   Program Objectives ................................................................................ 19

   Analysis of Program Performance ............................................................. 20

 Closeout Activity ....................................................................................... 22

 Conclusion ............................................................................................... 23

 Recommendations..................................................................................... 25

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ..........................26

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ...................... 28

APPENDIX III: DETAILED UNSUPPORTED COSTS ..................................... 29

APPENDIX IV: OTHER REPORTABLE MATTERS.......................................... 32

   Sale of Aviation Equipment...................................................................... 32

   Conference Expenditures ........................................................................ 32

APPENDIX V: SHERIFFS’ ASSOCIATION OF TEXAS RESPONSE TO DRAFT

AUDIT REPORT..........................................................................................34

APPENDIX VI: OFFICE OF JUSTICE PROGRAMS RESPONSE TO DRAFT

AUDIT REPORT..........................................................................................39

APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ..................... 42

 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS NATIONAL

   INSTITUTE OF JUSTICE COOPERATIVE AGREEMENTS

  AWARDED TO THE SHERIFFS’ ASSOCIATION OF TEXAS

                   AUSTIN, TEXAS



                               INTRODUCTION


       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of two cooperative agreements
totaling $5,094,642, awarded by the Office of Justice Programs (OJP),
National Institute of Justice (NIJ) to the Sheriffs’ Association of Texas (SAT),
as shown in Exhibit 1.

EXHIBIT 1: COOPERATIVE AGREEMENTS AWARDED TO THE
           SHERIFFS’ ASSOCIATION OF TEXAS
                                                   PROJECT    PROJECT
                      COOPERATIVE       AWARD       START       END         AWARD
 AWARD NUMBER     AGREEMENT PROGRAM      DATE       DATE       DATE         AMOUNT
                  Border Research and
2006-IJ-CX-K016   Technology Center     09/14/06   07/01/06   09/30/11     $4,609,496
                  (BRTC) Support
                  Evaluation of Low
2009-IJ-CX-K017   Cost Aviation for     09/23/09   10/01/09   09/30/11       485,146
                  Law Enforcement
                                                                Total:     $5,094,642
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing grants
for the implementation of these crime fighting strategies. To support this
mission, the NIJ provides objective and independent knowledge and tools to
reduce crime and promote justice, particularly at the state and local levels.

      Cooperative agreement 2006-IJ-CX-K016 provides for the operation
and maintenance of the Border Research and Technology Center (BRTC).
The BRTC provides science and engineering advice and support, technology
information, and outreach services on border-related issues, resulting in the
adoption of new tools and technologies for use by local law enforcement


                                          1

agencies. The BRTC also works with law enforcement agencies at ports of
entry that are interested in technologies to respond to critical incidents at
schools, as well as tools for detecting contraband. The purpose of
cooperative agreement 2009-IJ-CX-K017 is to determine the need by the
law enforcement community for lower cost aviation platforms, then
determining what technology might be required to enhance the effectiveness
of those platforms. This project examines technologies such as airborne still
camera systems, video camera systems, video downlinks, and air-to-ground
law enforcement communication systems. Further, this project facilitates
the exchange of information between state, local, and tribal criminal justice
agencies and the NIJ’s research, development, test and evaluation
programs.

       According to the SAT's website, their mission is, "That we, as Sheriffs,
have assembled in convention for no political purpose whatsoever, but for
the purpose of more successfully aiding each other as officers, to execute
the laws, in the discharge of our duties against criminals, and for the further
and better protection of the citizens of our respective counties and the State
at large."

      Also, according to the Association's website, the SAT is one of the
oldest law enforcement associations in the nation. The SAT met for the first
time on August 14, 1874, in the courthouse in Corsicana, Navarro County,
Texas. The Sheriffs began annual training conferences in 1878. According
to the SAT’s website, these training conferences are the largest composite
gathering of law enforcement officers in Texas. Sheriffs and other county
and local law enforcement officers, federal and state officers, and major
industry security personnel attend.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and cooperative agreement award documents. We tested the SAT’s:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard cooperative agreement funds and ensure
      compliance with the terms and conditions of the cooperative
      agreements;




                                       2

  •	 cooperative agreement drawdowns to determine whether
     cooperative agreement drawdowns were adequately supported and if
     SAT was managing cooperative agreement receipts in accordance with
     federal requirements;

  •	 budget management and control to determine SAT’s compliance
     with the costs approved in the cooperative agreement budgets;

  •	 cooperative agreement expenditures to determine the accuracy
     and allowability of costs charged to the cooperative agreements;

  •	 property management to determine the existence of capital
     property purchased using cooperative agreement funds as well as
     reasonable assurance that the property was used properly in
     accordance with cooperative agreement requirements;

  •	 Federal Financial Reports (FFRs) and Progress Reports to
     determine if the required FFRs and Progress Reports were submitted in
     a timely manner and accurately reflect cooperative agreement activity;

  •	 cooperative agreement objectives and accomplishments to
     determine whether the SAT has met the cooperative agreement
     objectives; and

  •	 closeout activity to determine that appropriate action had been
     taken to administratively close cooperative agreements that had
     reached their end date.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I.




                                    3

               FINDINGS AND RECOMMENDATIONS

     We determined that the SAT did not have documented policies
     and procedures related to accounting functions; however SAT’s
     accounting system provided for segregation of duties and system
     security. We also found that the SAT was generally in
     compliance in the following areas: drawdowns, financial reports,
     and Progress Reports. Additionally, there was no indication that
     SAT officials did not complete the goals and objectives of the
     Active Shooter Simulation Technology, FY 2008 NIJ Applied
     Technologies Conference, License Plate Reader technology and
     Low Cost Aviation Program areas mentioned for cooperative
     agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017; however,
     SAT officials did not demonstrate performance for the remaining
     objectives. Furthermore, SAT officials did not provide copies of
     contracts, so we could not assess the adequacy of SAT’s
     monitoring activities or whether the requirements in the
     contracts were fulfilled. Finally, during our review, we identified
     internal control weaknesses, which resulted in unsupported
     direct costs totaling $177,517; unsupported contractor costs
     totaling $303,995; unallowable expenditures for a phone and a
     computer that were loaned to NIJ officials, totaling $5,907;
     unsupported accountable property costs totaling $72,776;
     transactions without proper documented approval; and
     unsupported indirect cost charges totaling $23,065.

Prior Audits

Single Audit

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-Federal entities that expend $500,000 or more per year in Federal
awards have a single audit performed annually. We determined that the
three most recent Single Audits of the SAT were for Fiscal Years (FY) 2008,
2009, and 2010. We reviewed these audit reports and identified the
following issues relating to cooperative agreements 2006-IJ-CX-K016 and
2009-IJ-CX-K017:

  •	 Proceeds from the sale of equipment purchased with award funds were
     retained and were not utilized for obtaining other program assets or
     for other program purposes.




                                     4

   •	 Depreciation expenses related to equipment acquired with award funds
      were charged to the award. Depreciation is not an allowable cost.

   •	 The drawdown requests for direct federal awards were not reconciled
      against the cumulative award expenditures in the accounting records.

   •	 Procedures were not in place to effectively monitor budget versus
      actual performance for the federal awards. Reliable budget versus
      actual reports were not available for program management’s review.

   •	 The organization’s single audit reporting package was submitted late
      to the Federal Clearinghouse. OMB Circular A-133 states that the
      reporting package must be submitted no later than nine months after
      the end of the audit period.

   •	 Certain wages paid to an employee included in the indirect cost pool
      for purposes of the indirect cost rate were also charged to the award
      as direct costs.

   •	 Procedures were not in place to ensure the accuracy of the quarterly
      Federal Financial Reports (FFRs) submitted to the grantor. Cumulative
      grant expenditures shown on the quarterly FFRs were not reconciled
      against cumulative grant expenditures per the accounting records.

OJP Site Visits

      We also noted that the NIJ Program Manager responsible for
cooperative agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017 had
performed three site visits in August 2009, April 2010, and April 2011.
According to reports of the three site visits, obtained from the OJP Grants
Management System (GMS), the NIJ Program Manager stated in the reports
that they did not identify any programmatic or administrative problems
requiring formal resolution. All three site visit reports also stated that the
SAT appeared to be progressing according to the plan presented in the
approved applications, and that it was in compliance with NIJ guidelines.

Internal Control Environment

      We reviewed the SAT’s internal control environment, including
procurement, receiving, payment, and payroll procedures to determine
compliance with the terms and conditions of the cooperative agreements and
to assess risk.




                                      5

      SAT officials stated that the SAT had procured accounting services
from an outside accounting firm for cooperative agreement
2006-IJ-CX-K016. SAT used an online system from which the accounting
services firm performed data entry. SAT officials stated that the SAT did not
have written policies and procedures regarding accounting functions.
However, SAT officials described the accounting processes that were
followed at the SAT. First, SAT officials received invoices, which were then
submitted to the Project Director for review and approval. Second, the
Project Director forwarded approved invoices to his assistant. Third, after
the invoices were approved by the Project Director, the assistant copied the
approved invoices and supporting documentation, added accounting code
information and submitted the approved invoices to the accounting services
firm for data entry into the accounting system. Fourth, the accounting
services firm completed data entry of the information and provided it to the
SAT Executive Director who reviewed the invoices online and provided
approval for payment.

      Towards the end of 2009, SAT officials explained that there was
dissatisfaction with the system provided by the accounting firm, primarily for
budget reporting, and the SAT changed to a new accounting system. The
SAT contracted with a new company to implement the new accounting
system and provide general assistance to the SAT. The SAT was responsible
for data entry into the new accounting system. After the new accounting
system was established, vendor invoices were received and provided to the
Project Director for approval. Once the Project Director approved the
invoices, the SAT Executive Director reviewed the documentation and
provided a higher level approval for invoices approved by the Project
Director. SAT officials also explained that vendor invoice payment entries
were entered in the accounting system, by another SAT employee. Officials
from the company who provided the new accounting system also explained
that the system was secured with restricted access.

Contractors

      SAT officials stated that the contractors included one sole source
contract, approved by NIJ, as well as former SAT employees who became
contractors at the request of NIJ. Contractors provided services including
research, transportation of assets, and running the various areas supported
by the BRTC including the Low Cost Aviation Program. SAT officials
explained that they monitored the contractors by reviewing the work
submitted by the contractors. SAT officials also stated that they monitored
the contractor’s activities by staying in contact with the contractors by phone



                                      6

as well as reviewing vouchers, reports and supporting documentation
submitted with their invoices.

      According to 28 CFR 70, a system for contract administration must be
maintained to ensure contractor conformance with the terms, conditions,
and specifications of the contract and to ensure adequate and timely follow
up of all purchases. Recipients must evaluate contractor performance and
document, as appropriate, whether contractors have met the terms,
conditions and specifications of the contract.

       During our transaction testing, we noted that when invoices were
submitted to SAT officials for approval and payment, a list of activities
performed generally would be included. In order to review the adequacy of
SAT’s monitoring procedures, we requested copies of the contracts. We
were able to review one contract that had been included in the supporting
documentation reviewed during transaction testing. Also, during our review
of Progress Reports, we were able to review the aviation mission reports SAT
officials used to monitor this contractor. However, with the exception of this
instance, SAT officials did not provide copies of contracts paid using
cooperative agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017. Since, we
were not able to obtain these contracts, we could not assess the adequacy of
SAT’s monitoring activities or whether the requirements in the contracts
were fulfilled.

      The SAT’s accounting system provided for segregation of duties and
system security; however, SAT did not have documented policies and
procedures related to accounting functions. We identified internal control
weaknesses, which resulted in: unsupported and unallowable direct cost
expenditures, unsupported indirect costs, inadequate property management,
inadequate budget oversight, no record of program income, and a lack of
documentation regarding proper approval of cooperative agreement
expenditures. These discrepancies are outlined in more detail in the
remainder of this report. We recommend that prior to SAT receiving any
future awards, SAT officials provide formal accounting procedures which
address these internal control weaknesses.

Drawdowns

      To determine the procedures for drawing down cooperative agreement
funds, we reviewed the award documentation and conducted interviews with
SAT officials. We determined that the cooperative agreements awarded to
the SAT are reimbursement based, and are therefore subject to the OJP
Financial Guide requirement that drawdown requests be timed to ensure that


                                      7

Federal cash on hand is the minimum needed for disbursements or
reimbursements to be made immediately or within ten days.

      We reviewed a judgmental sample of bank statements for four months
in which the SAT had drawn down cooperative agreement funds, and
determined that the drawdowns were properly deposited into a bank account
maintained by SAT officials. Also, we analyzed each cooperative agreement
in our audit to determine if the total actual costs recorded in the accounting
records were equal to the cumulative drawdowns as reported by the OJP.
We determined that cumulative drawdowns equaled total cooperative
agreement expenditures.

Budget Management and Control

      According to the OJP Financial Guide, movement of dollars between
approved budget categories without a Grant Adjustment Notice (GAN) is
allowable up to 10 percent of the total award amount for awards greater
than $100,000. As noted in Exhibit 1, the SAT received two awards; both
awards were greater than $100,000. SAT officials stated that cooperative
agreement budgets were developed in cooperation with the Program
Manager for NIJ, who provided guidance and made recommendations for
budget category amounts in order to fulfill cooperative agreement
objectives. SAT officials also stated that during the execution phase of the
cooperative agreements, the NIJ Program Manager made recommendations
and authorized changes, through email, in amounts expended for budget
categories of less than 10 percent of the approved budget amounts. We
compared the approved budgets for this award to the actual expenditures as
shown in the SAT’s accounting records.

      SAT officials stated that in accordance with the budgets, if an
expenditure did not fall into an item identified specifically in the cooperative
agreement budgets then it would be placed in the "Other" budget category.
For example, SAT officials explained that travel charges like lodging,
transportation, and meals were in either the “Travel” or the “Other” budget
categories. SAT officials referred OIG auditors to the company, which
assisted SAT with their change in accounting systems, so OIG auditors could
segregate cooperative agreement expenditures to correlate to the approved
budgets. These officials provided a spreadsheet linking general ledger
categories and subcategories to the approved cooperative agreement budget
for cooperative agreement 2006-IJ-CX-K016. As shown in Exhibit 2, we
determined that SAT officials spent in excess of the budgeted amount in five
of the seven approved budget categories, totaling $378,692. However, we



                                       8

determined that this was within the 10-percent threshold allowed per the
OJP Financial Guide.

EXHIBIT 2:	           BUDGET MANAGEMENT AND CONTROL FOR
                      COOPERATIVE AGREEMENT 2006-IJ-CX-K016 1
                          BUDGET CATEGORY                                  AMOUNT OVER
  BUDGET CATEGORY             AMOUNT               ACTUAL COSTS              BUDGET
 Personnel                  $ 1,052,170             $ 1,144,614             $ (92,444)

 Fringe Benefits                 166,450                 148,489                  -

 Travel                          566,311                 734,471             (168,160)

 Equipment                        25,969                  97,649              (71,680)

 Supplies                         12,834                  17,567               (4,733)

 Construction                       -                        -                    -

 Contractual                     608,000                 649,675              (41,675)

 Other                         1,806,268               1,432,208                  -

 TOTAL DIRECT COSTS         $4,238,002               $4,224,674             $378,692

 Indirect Costs 2                371,494                 384,822                      N/A

 TOTAL AMOUNT               $4,609,496               $4,609,496             $378,692

                Ten Percent Threshold for 2006-IJ-CX-K016:                  $460,950
               Difference Between Over Budget Amounts and
                                                                            $ 82,257
                                    Ten Percent Threshold:


      When we asked the company about being able to provide the same
type of documentation for cooperative agreement 2009-IJ-CX-K017, officials
stated that they were not as familiar with this cooperative agreement as
they were with cooperative agreement 2006-IJ-CX-K016 and that they could
not provide additional explanation to compare expenditures in the general
ledger to the approved budget categories for cooperative agreement
2009-IJ-CX-K017. The approved budget for cooperative agreement
2009-IJ-CX-K017 is shown in Exhibit 3.




         1
          Differences in total amounts are due to rounding. The sum of individual numbers
prior to rounding may differ from the sum of the individual numbers rounded.
        2
          It should be noted that indirect costs were not factored into our budget analysis.
Indirect costs were included to illustrate total costs when compared to total grant budgets.
Our analysis of indirect costs is noted further in this report.

                                              9

          EXHIBIT 3: APPROVED BUDGET FOR COOPERATIVE
                     AGREEMENT 2009-IJ-CX-K017
                     BUDGET CATEGORY           BUDGET CATEGORY AMOUNT
                       Personnel                     $     -
                     Fringe Benefits                      -
                         Travel                         22,125
                       Equipment                        65,000
                        Supplies                         5,400
                      Construction                        -
                        Contractual                    205,450

                           Other                       113,759

                    TOTAL DIRECT COSTS               $411,734

                       Indirect Costs                   73,412

               TOTAL BUDGETED AWARD AMOUNT           $485,146


      After further discussion with SAT officials, SAT officials were not able
to provide any additional explanation regarding the segregation of
cooperative agreement expenditures relating to the approved budgets for
cooperative agreement 2009-IJ-CX-K017. According to the OJP Financial
Guide, an adequate accounting system should let you compare actual
expenditures or outlays with budgeted amounts for each award and
subaward. Therefore, the categories that organize the general ledgers
should be organized so that actual expenditures can be properly compared
to the amounts stated in the approved cooperative agreement budgets. We
recommend that in the future if the SAT is to receive additional OJP funding,
the OJP require that the SAT establish a general ledger that is capable of
categorizing expenditures that will allow comparison with the approved
budget.

Cooperative Agreement Expenditures

Direct Costs

      Initially, for cooperative agreement 2006-IJ-CX-K016, we judgmentally
selected 86 of 4,749 transactions totaling $1,345,851 (32 percent of direct
cooperative agreement expenditures). For cooperative agreement
2009-IJ-CX-K017, we judgmentally selected 28 of 327 transactions, totaling
$301,513 (71 percent of direct cooperative agreement expenditures).
According to the OJP Financial Guide, all financial records, supporting
documents, statistical records, and all other records pertinent to the award

                                         10

shall be retained by each organization for at least three years following
notification by the awarding agency that the grant has been
programmatically and fiscally closed or at least three years following the
closure of its single audit report covering the entire award period, whichever
is later. The OJP Financial Guide also states that all recipients are required
to establish and maintain adequate accounting systems and financial records
to accurately account for funds awarded to them.

      During our review, we noted that SAT officials did not provide any
supporting documentation or did not provide adequate supporting
documentation for six transactions, totaling $177,517. In four of the six
transactions mentioned, SAT officials provided a quotation or estimate for
charges but did not provide an invoice or other adequate documentation
indicating the actual amount paid or that actual goods and services had been
received and were properly charged. Therefore, we determined these
transactions to be unsupported. Detailed information regarding these costs
can be found in Appendix III.

      Also, as stated in the contractors section of this report, SAT officials
did not provide copies of contracts that were paid using cooperative
agreement funds. Without documentation of the contracts, we could not
verify that contractors performed the work required under those contracts
and we could not verify that contractors were compensated appropriately as
stated in those contracts. Therefore, we determined that 15 transactions
involving contractors, totaling $303,995, were unsupported. Detailed
information regarding these costs can also be found in Appendix III.

      During transaction testing of expenditures for SAT cooperative
agreement 2006-IJ-CX-K016, we noted that the SAT provided the NIJ
Program Manager cellular phone service and charged expenditures for this
service to the cooperative agreement. According to the budget narratives
for cooperative agreement 2006-IJ-CX-K016, wireless communications
service (including cell phone and wireless email access devices) were for the
use of BRTC staff. Also, the budget narratives stated that computers were
purchased for use by SAT staff and management as may be determined by
the BRTC Director with concurrence of the NIJ Program Manager. We
expanded our testing by 175 transactions, totaling $30,621, to include the
remaining phone transactions as well as a laptop computer that was noted in
the general ledger to be allocated to the NIJ Program Manager.

       SAT officials stated that the service was initiated after discussions with
the NIJ Program Manager prior to the DOJ providing the Program Manager a
cellular phone. SAT officials further explained since they were new to the


                                       11

NIJ program they were concerned about their ability to readily contact the
Program Manager in a timely manner. In addition, SAT officials stated they
also purchased a laptop computer at the request of the NIJ Program
Manager and that the laptop was used for developing and making slide
presentations for conferences and meetings supported by NIJ funding.

       The NIJ Program Manager explained that the phone and the laptop
were loaned to him as part of the SAT’s programmatic support to the
programs that he manages as part of the cooperative agreements and that
they were not purchased so that SAT officials had the ability to contact him
in an easier manner, even if it had that unintended result. The NIJ Program
Manager also explained that the smart phone technology was used to
demonstrate a project in which smart phone technology could be used as a
low cost mobile computing platform for law enforcement, demonstrate a
project for a Situational Awareness Tool, demonstrate NIJ’s smart phone
applications, and demonstrate its use in the Low Cost Aviation Technology
Program. The NIJ Program Manager confirmed the explanation of SAT
officials stating that the loaned laptop was used in making slide
presentations for the various conferences that NIJ’s programs had presented
as well as at their display at various law enforcement trade shows. The NIJ
Program Manager also stated that the laptop was returned to the current
grantee after their last booth presentation at the NIJ annual conference in
June 2012.

      We determined that the use of equipment loaned to NIJ officials was
not included in the approved budgets since the budgets indicated that the
equipment purchased using cooperative agreement funds was for the use of
SAT staff. Therefore, we determined that the $5,907 in telephone and
equipment charges to be unallowable. Detailed information regarding these
costs can also be found in Appendix III.

      As previously mentioned in this report, the OJP Financial Guide states
the recipient is responsible for establishing and maintaining an adequate
system of accounting and internal controls. The OJP Financial Guide also
states that an acceptable and adequate accounting system provides cost and
property control to ensure optimal use of funds. In order to verify the
controls and procedures described by SAT officials, we reviewed supporting
documentation to verify that transactions were properly approved by the
appropriate SAT official. During our testing, we determined that 40 of the
290 transactions we reviewed did not have any written indication of approval
from an appropriate SAT official. Without proper approval, expenditures
may not be an optimal, reasonable, or allowable use of cooperative
agreement funds.


                                    12

Indirect Costs

      As shown in Exhibits 2 and 3, indirect costs were approved for
cooperative agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017. According
to documentation provided by SAT officials, indirect cost rates are
determined by negotiating through the Office of the Chief Financial Officer,
OJP. According to an indirect cost agreement dated September 16, 2011,
the indirect costs rate uses a base that includes total direct costs excluding
capitalized equipment, and each subcontract and subaward/subgrant in
excess of $25,000.

       When we asked SAT officials about indirect costs and the indirect cost
rate, SAT officials deferred us to the independent auditor who performed
their Single Audit. The independent auditor explained that the Project
Director performed the drawdowns and would use reports of direct costs
incurred from the accounting system and would then calculate a percentage
of those costs to determine the appropriate amount of indirect costs. In
response to a question from OIG auditors, the independent auditor stated
that she believed that the exclusions of capitalized equipment and
subcontracts, noted in the previous paragraph, were not used by SAT
officials when calculating indirect costs. Instead, the independent auditor
explained that SAT officials used a rate that was lower than the approved
rate and calculated indirect costs using total direct costs.

      Therefore, we compared the amounts spent for indirect costs to the
amounts allowed per the approved indirect cost agreements. We
determined that the cumulative indirect costs charged for cooperative
agreement 2006-IJ-CX-K016 did not exceed the cumulative amount allowed
per the approved indirect cost rate agreement. However, as shown in
Exhibit 4, we determined that the indirect costs charged to cooperative
agreement 2009-IJ-CX-K017 exceeded the amount allowed using direct cost
amounts and the approved indirect cost rate agreement. Therefore, we
determined that $23,065 in indirect costs was unsupported due to spending
beyond the parameters and limitations of the indirect cost agreement.




                                      13

EXHIBIT 4: COOPERATIVE AGREEMENT 2009-IJ-CX-K017 INDIRECT
           COST CHARGES PER YEAR
                                                     INDIRECT
                                                      COSTS        ACTUAL
                                    APPROVED         ALLOWED      INDIRECT
                  DIRECT COST     INDIRECT COST        PER         COSTS
  FY ENDING          BASIS            RATE          AGREEMENT     CHARGED      DIFFERENCE
  12/31/2009       $     -               13.70%      $     -      $     -      $      -

  12/31/2010           123,751           13.70%          16,954         -           16,954

  12/31/2011           119,731           13.70%          16,403       56,422       (40,018)

TOTAL COSTS        $243,482                          $33,357      $56,422      $(23,065)

Source: Sheriffs’ Association of Texas

Property Management

       As shown in Exhibits 2 and 3, expenditures for accountable property
were allowed for cooperative agreements 2006-IJ-CX-K016 and
2009-IJ-CX-K017. The criteria that SAT officials used to define an
expenditure for capital property was expenditures greater than $5,000 and a
useful life of greater than one year. SAT officials stated that they retain an
inventory of all federally funded property and equipment. SAT officials also
explained that accountable property purchased using cooperative agreement
funds were transferred to a partner agency (who also received a cooperative
agreement in the Low Cost Aviation Program) upon the expiration of the
cooperative agreements to continue the program. SAT officials also advised
that the NIJ Program Manager was involved in decisions to acquire
equipment for execution of the cooperative agreements. SAT officials stated
that they used mission reports from the users of the equipment in order to
ensure that the equipment was used in accordance to the terms and
conditions of the cooperative agreements. According to the OJP Financial
Guide, property records should be maintained accurately and include, the
date of disposal and sales price or the method used to determine current fair
market value where a recipient compensates the Federal awarding agency
for its share.

      During our review of aviation mission reports for Progress Report
testing, we verified that accountable property was used in accordance to the
terms and conditions of the cooperative agreement. Also, to ensure the
existence of accountable property purchased using cooperative agreement
funds, we requested SAT officials coordinate with their partner agency as
well as the users of the cooperative agreement-funded accountable property
to provide photographs of the accountable property and serial numbers so


                                              14

that we could reconcile them to the expenditures and supporting
documentation already reviewed. After reviewing the photographs provided
by SAT officials, with the exception of one instance, we verified the existence
of capital property purchased using cooperative agreement funds. However,
according to a property list obtained from SAT officials as well as
explanations and documented correspondence from SAT officials we noted
that two pieces of accountable property had been sold prior to the transfer
of accountable property to the partner agency. The two pieces of
accountable property were identified as a RANS S-12 and a Revo Trike.
After reviewing the property list as well as equipment transactions in the
general ledgers we determined that the Revo Trike had been purchased
using cooperative agreement 2009-IJ-CX-K017. After reviewing the
supporting documentation relating to the purchase of the Revo Trike, we
determined that it initially cost $72,776. We requested that SAT provide
supporting documentation for the sale of this asset so that we could verify
whether appropriate disposition requirements were followed. However, SAT
officials did not provide documentation relating to the custody and
disposition relating to the Revo Trike. Therefore, we determined that the
transactions for the Revo Trike, totaling $72,776 were unsupported. Further
detail regarding these costs can be found in Appendix III.

Grant Reporting

      We reviewed the Financial Reports and Categorical Assistance Progress
Reports (Progress Reports) to determine if the required reports had been
submitted accurately, and within the timeframes required by the OJP
Financial Guide.

Financial Reporting

      The OJP Financial Guide states that effective for the quarter beginning
October 1, 2009, grant recipients must report expenditures online using the
Federal Financial Report (FFR) no later than 30 days after the end of each
calendar quarter. The OJP Financial Guide also states that the final report
must be submitted no later than 90 days following the end of the grant
period. We reviewed the four most recent FFRs for each cooperative
agreement and determined that financial reporting had been submitted in a
timely manner.

      As shown in Exhibit 5, we also reviewed financial reporting for
accuracy. According to the OJP Financial Guide, recipients shall report the
actual expenditures and unliquidated obligations incurred for the reporting
period on each financial report. Also, the award recipients should report


                                      15

program outlays and revenue on a cash or accrual basis in accordance with
their accounting system. For cooperative agreement 2006-IJ-CX-K016, we
determined that reported period expenditures were accurate to expenditures
in the general ledger on a cumulative basis. For cooperative agreement
2009-IJ-CX-K017, we determined that financial reports were not accurate to
the general ledger.

EXHIBIT 5: FEDERAL FINANCIAL REPORT EXPENDITURE ACCURACY
                                                      CUMULATIVE     CUMULATIVE
                                                        AWARD        DIFFERENCE
                                  CUMULATIVE         EXPENDITURES      BETWEEN
                                    AWARD                PER          REPORTS &
 REPORT         REPORT PERIOD    EXPENDITURES         ACCOUNTING     ACCOUNTING
  NO.          FROM - TO DATES    PER REPORT           RECORDS         RECORDS
Cooperative Agreement 2006-IJ-CX-K016
   18        10/01/10 - 12/31/10  $4,195,050         $ 4,221,111     $    26,061
   19          01/01/11 - 03/31/11  4,285,730            4,307,389         21,659
   20          04/01/11 - 06/30/11  4,389,264            4,378,936       (10,328)
   21          07/01/11 - 09/30/11  4,609,496            4,609,496           -
Cooperative   Agreement 2009-IJ-CX-K017
   5          10/01/10   -   12/31/10   $ 315,236    $    302,637    $ (12,598)
   6          01/01/11   -   03/31/11     388,187         316,351      (71,836)
   7          04/01/11   -   06/30/11     362,021         336,602      (25,419)
   8          07/01/11   -   09/30/11     481,661         480,146       (1,515)
Source: OJP Grants Management System (GMS) and SAT

Program Income

      The OJP Financial Guide requires recipients to report summary
information on funds generated by the organization, including program
income. Also, the OJP Financial Guide describes the sale of property as a
source of program income. As stated previously in the Accountable Property
section of this report, SAT officials stated that they sold two aircraft and that
the NIJ Program Manager directed the SAT to acquire similar assets with the
proceeds of the sales. Also, the independent auditor who performed SAT’s
single audit stated that the journal entry used for the sale of equipment
would not include an entry for revenue, but would provide a reversing entry
for the sale amount of the asset.

      As stated previously in the Property Management section of this
report, OIG auditors requested documentation regarding the sale of these
assets. However, SAT officials did not provide any documentation relating to
the sale of accountable property. Also, after reviewing the accuracy of FFRs,
we noted that SAT reported there was no program income. Therefore, we


                                          16

determined that SAT officials did not report program income on the sale of
accountable property and that SAT officials did not provide documentation
relating to the sale of accountable property.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
award. To verify the timely submission of Progress Reports, we reviewed
the last four Progress Reports submitted for each grant to determine if the
report had been submitted as required by the OJP Financial Guide. As
shown in Exhibit 6, we determined that one Progress Report for cooperative
agreement 2009-IJ-CX-K017 had been submitted late. When we inquired
about why the last Progress Report was late, SAT officials stated that they
were not aware that this Progress Report had been submitted late or why it
was submitted late. SAT officials also explained that the final report
required for the NIJ Aviation Program was incomplete because the program
was not completed and the report was sent to a partner agency for the third
year of the Aviation Program.

EXHIBIT 6: CATEGORICAL ASSISTANCE PROGRESS REPORT HISTORY
                      REPORT PERIOD
   REPORT NO.        FROM - TO DATES         DUE DATE   DATE SUBMITTED   DAYS LATE
Cooperative Agreement 2006-IJ-CX-K016
       8           01/01/10 - 06/30/10       07/30/10      07/30/10         0
       9           07/01/10 - 12/31/10       01/30/11      01/21/11         0
       10          01/01/11 - 06/30/11       07/30/11      07/29/11         0
       11          07/01/11 - 09/30/11       12/29/11      12/29/11         0
Cooperative Agreement 2009-IJ-CX-K017
       2           01/01/10 - 06/30/10       07/30/10     07/30/10          0
       3           07/01/10 - 12/31/10       01/30/11     01/21/11          0
       4           01/01/11 - 06/30/11       07/30/11     07/29/11          0
       5           07/01/11 - 09/30/11       12/29/11     03/13/12          75
Source: OJP Grants Management System (GMS)

        We also reviewed Progress Reports for accuracy. According to the OJP
Financial Guide, the funding recipient agrees to collect data appropriate for
facilitating reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient will ensure
that valid and auditable source documentation is available to support all data
collected for each performance measure specified in the program solicitation.
In order to verify the information in Progress Reports, we selected a sample
of information from the last two Progress Reports submitted for each



                                      17

cooperative agreement and traced it to supporting documentation
maintained by SAT officials.

      SAT officials stated that the information for the Progress Reports is
compiled by the Project Director who then completes the Progress Reports.
According to the Project Director, statements made in the Progress Reports
were derived by referring to the cooperative agreement requirements and
measuring them against the accomplishments attained during the period of
review. Furthermore, the Project Director stated that he used general ledger
expenditures, direct communications with the NIJ Program Manager, and his
recollection of program activities to measure and report progress towards
award objectives.

      For cooperative agreement 2006-IJ-CX-K016, we reviewed supporting
documentation for activities and accomplishments of the various programs of
the BRTC that were stated within the Progress Reports. We were not able to
verify 9 of the 15 statements made in the Progress Reports for cooperative
agreement 2006-IJ-CX-K016. In several instances supporting
documentation provided to us was insufficient or were not provided to us to
support statements made in Progress Reports. For cooperative agreement
2009-IJ-CX-K017, we reviewed the supporting documentation for the
number and types of aviation missions flown for the NIJ Aviation Program
and found the statements made by SAT in the Progress Reports to be
generally supported.

Program Performance and Accomplishments

      As previously mentioned in this report, cooperative agreement
2006-IJ-CX-K016 provides for the operation and maintenance of the BRTC.
The BRTC provides scientific and engineering advice and support, technology
information, and outreach services on border-related issues, resulting in the
adoption of new tools and technologies for use by local law enforcement
agencies. The BRTC also works with law enforcement agencies at ports of
entry that are interested in technologies to respond to critical incidents at
schools, as well as tools for detecting contraband. The purpose of
cooperative agreement 2009-IJ-CX-K017 is to determine the need by the
law enforcement community for lower cost aviation platforms, then
determining what technology might be required to enhance the effectiveness
of those platforms. This project examines technologies such as airborne still
camera systems, video camera systems, video downlinks, and air-to-ground
law enforcement communication systems.




                                     18

Program Objectives

      For cooperative agreement 2006-IJ-CX-K016, we reviewed documents
submitted by SAT officials in their application for the cooperative agreement
awards as well as Grant Adjustment Notices (GANs). The SAT proposed to
support the BRTC by providing outreach and technical assistance to state
and local public safety agencies in the United States border areas as well as
technical support to research and development programs supported by the
NIJ and relevant NIJ Centers of Excellence. In order to support the BRTC,
SAT officials stated in the applications for the cooperative agreements that
they would support various projects and activities including:

  •	 represent the BRTC at conferences, making presentations, and
     conducting demonstrations as appropriate for target personnel in
     appropriate venues;

  •	 work with the Communications Technology Center of Excellence to
     develop pilot program(s) to demonstrate and evaluate technology
     solutions to law enforcement communications needs in border area
     jurisdictions;

  •	 conduct on-site technology demonstrations and capacity building upon
     request from state and local public safety agencies;

  •	 provide assistance, as requested, to state and local agencies in the
     development of plans and strategies and selection and implementation
     of technology solutions than may enhance force multiplication with the
     greatest return on investment;

  •	   provide information and assistance on request to agencies considering
       purchase or deployment of technology products and capabilities,
       including site visits;

  •	   provide technical support to the NIJ Research and Development

       process, including technical input and recommendations to NIJ

       officials; and


  •	   SAT officials stated they would provide support for various activities
       and projects including Law Enforcement Thermographers Association
       training sessions, License Plate Reader technology, Computer Assisted
       Pre-Coordination Resource and Database system, 700/800 MHz
       Regional Planning Committee Chairs, evidence recovery and tunnel
       detection technologies, Active Shooter Simulation Technology, Surplus


                                      19

     Property Program, and annual International Homicide Investigators’
     Association meeting.

Analysis of Program Performance

       The SAT, through cooperative agreement 2006-IJ-CX-K016, received
BRTC funding to provide support for a college or university to conduct an
operational evaluation of the Active Shooter Simulation Technology, funded
by NIJ. The SAT contracted with Washington State University to conduct an
evaluation of the Active Shooter Training for Responding Officers (ASTRO)
software. The goal of the evaluation was to experimentally assess whether
the addition of the ASTRO software would significantly improve experienced
officer performance in a highly realistic assessment scenario. The SAT
provided the ASTRO evaluation report to the NIJ affixed to their final
Progress Report for the period ending September 30, 2011.

      Also, the SAT received funding to host and support the FY 2008 NIJ
Applied Technologies Conference. The conference was held in Point Clear,
Alabama and was primarily attended by Federal, state, and local law
enforcement community individuals. Meeting agenda discussions included
Low Cost Aviation Assets as a Sensor and Surveillance Platform for Small
and Large Agencies; License Plate Reading Cameras: Seeing is Believing;
Active Shooter/School Safety; Protecting Law Enforcement Against New
Threats; and Federal Excess Property Programs. The SAT provided support
for the conference to include expenditures for participant meals, hotel,
travel, and conference related expenses.

       Another project that SAT focused on through cooperative agreement
2006-IJ-CX-K016 was to conduct an operational evaluation of the cost
effectiveness and applicability of License Plate Reader technology along the
borders of the United States. The evaluation attempted to determine the
efficacy of the technology in varying locations and distances from
established or clandestine border crossing locations for detecting and
apprehending human and drug smugglers and other persons of interest
operating on primary and secondary roadways leading to or from targeted
border areas. The SAT acquired LPR system equipment to identify stolen or
unwanted vehicles within the state of Texas prior to reaching and crossing
the border into Mexico. The BRTC also acquired and deployed a fixed site
LPR system for evaluation on the Chesapeake Bay Bridge in Maryland, in
cooperation with the Maryland Transportation Authority. The SAT provided
results from their evaluations of LPR systems to the National Law
Enforcement and Corrections Technology Center (NLECTC) Small, Rural,
Tribal and Border Regional Center (SRTB-RC). The NLECTC SRTB-RC
produced a report titled License Plate Reader Systems “Function,

                                     20

Performance and Considerations for Law Enforcement Agencies,” which
discusses the types of LPR systems, performance and expectations, as well
as considerations such as location, communications and system costs for law
enforcement agencies contemplating the purchase and deployment of LPR
technology.

      Through the BRTC, the SAT funded a program to evaluate lower cost
aviation assets, affordable to smaller public safety agencies for search and
rescue missions, surveillance and the ability to provide enhanced airborne
communications capabilities. The NIJ Aviation Program evaluation began
with cooperative agreement 2006-IJ-CX-K016 and received additional
funding to continue the program under cooperative agreement
2009-IJ-CX-K017. The program evaluation included analysis of manned
aircraft such as fixed wing light sport, powered parachutes, weight shift
control aircraft, gyroplanes, and small unmanned aircraft systems, which
were remotely piloted. For 2010, the NIJ Aviation Program reported a total
of 640 law enforcement missions flown. During the year, the program
reported operating between 10 to 12 aircraft for approximately 983 hours of
aircraft operation. These aircraft completed various types of missions
including patrol, surveillance, search and rescue, photography, and
narcotics. The SAT declined to accept a supplemental award for cooperative
agreement 2009-IJ-CX-K017. As a result, SAT transferred all federally
acquired capital property to a partner agency, effective October 1, 2011, to
continue the NIJ Aviation Program evaluation. The SAT also transferred
responsibility for completing the NIJ aviation program evaluation to this
partner agency. Since the award end date preceded the completion of the
evaluation, the SAT did not complete the Aviation Technology Program
Technical Report, which was required by the cooperative agreement award
documents, by the end of the award period. The SAT provided the partner
agency a draft version of the technical report with program results through
the award performance period for completion under cooperative agreement
2009-IJ-CX-K019. Also, based on our review of the documentation provided
by SAT officials regarding the Aviation Program, we do not take exception to
SAT’s performance and accomplishments for meeting the goals and
objectives for the NIJ Aviation Program.

      Based on the evidence noted above, we determined there is no
indication that SAT officials did not complete the goals and objectives of the
Active Shooter Simulation Technology, FY 2008 NIJ Applied Technologies
Conference, LPR technology, and Low Cost Aviation Program areas
mentioned for cooperative agreements 2006-IJ-CX-K016 and
2009-IJ-CX-K017.



                                      21

       However, we were not able to perform an analysis of SAT’s program
support for various cooperative agreement projects and activities, other than
those discussed immediately above. We requested SAT officials provide
written responses and supporting documentation to support each NIJ
program goal and associated accomplishments for the two cooperative
agreements to include: (1) program goals and objectives; (2) SAT provided
services; (3) lessons learned; (4) SAT measurement of program goals and
objectives; and (5) meeting minutes, conference agendas, and listing of
attendees for all NIJ funded conferences and meetings. With exception to
the program areas mentioned in the previous paragraph, SAT officials did
not provide written explanations and supporting documentation for activities
listed in the program objectives section of this report.

Closeout Activity

       According to the OJP Financial Guide, award recipients have 90 days
after the end date of the award to close out the award. Also, award
recipients are to provide a cash reconciliation, the final financial report, and
the final Progress Report to the granting agency as well as make a final
drawdown (before 90 days after the award).

EXHIBIT 7:	 CLOSEOUT STATUS OF COOPERATIVE AGREEMENTS
            AWARDED TO THE SHERIFFS’ ASSOCIATION OF TEXAS
                                                 REQUIRED
                                                  PROJECT
                      PROJECT       PROJECT      CLOSEOUT       CLOSEOUT STATUS PER OJP
  AWARD NUMBER       START DATE     END DATE       DATE        GRANTS MANAGEMENT SYSTEM
 2006-IJ-CX-K016      07/01/06      09/30/11    12/29/2011     Overdue – Open ARD Audit 3
 2009-IJ-CX-K017      10/01/09      09/30/11    12/29/2011         Closeout In Process
Source: OJP Grants Management System (GMS)

       As shown in Exhibit 7, both of the cooperative agreements reviewed
had reached their end date at the time of this audit, and we determined that
those cooperative agreements were in the process of being closed. OJP
officials explained that cooperative agreement 2006-IJ-CX-K016 had not
been closed out due to outstanding issues relating to SAT’s FY 2008 Single
Audit and that these single audit issues had been resolved. We also verified
that the final FFR was submitted, the final Progress Report was submitted,
and that final drawdowns were in compliance with the terms and conditions
required by the OJP Financial Guide.



       3
          OJP officials explained that ARD stands for the Audit and Review Division within
the Office of Audit, Assessment, and Management.

                                             22

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
terms and conditions of the cooperative agreements, and to determine
program performance and accomplishments. We performed detailed
transaction testing and examined the SAT’s accounting records, budget
documents, financial and progress reports, and operating policies and
procedures. We found that the SAT:

  •	 drawdowns were properly deposited, and were equal to the actual
     expenditures per accounting records;

  •	 cooperative agreement expenditures were within the 10-percent
     threshold allowed per the OJP Financial Guide for cooperative
     agreement 2006-IJ-CX-K016, but the general ledger for cooperative
     agreement 2009-IJ-CX-K017 was not organized to allow for
     comparison to the approved cooperative agreement budget (therefore,
     we could not verify if cumulative expenditures were within the 10­
     percent threshold allowed per the OJP Financial Guide);

  •	 the Federal Financial Reports were submitted in a timely manner and
     reported expenditures were cumulatively accurate for cooperative
     agreement 2009-IJ-CX-K017, but were not cumulatively accurate for
     cooperative agreement 2006-IJ-CX-K016;

  •	 the Progress Reports were generally submitted in a timely manner and
     were generally accurate for cooperative agreement 2009-IJ-CX-K017,
     but were not accurate for cooperative agreement 2006-IJ-CX-K016;
     and

  •	 there was no indication that SAT officials did not complete the goals
     and objectives of the Active Shooter Simulation Technology, FY 2008
     NIJ Applied Technologies Conference, License Plate Reader technology,
     and Low Cost Aviation Program areas mentioned for cooperative
     agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017; however, SAT
     officials did not demonstrate performance for the remaining objectives.

     The SAT’s accounting system provided for segregation of duties and
system security; however, SAT did not have documented policies and
procedures related to accounting functions. We identified internal control
weaknesses, which resulted in: unsupported and unallowable direct cost


                                     23

expenditures, unsupported indirect costs, inadequate property management,
inadequate budget oversight, no record of program income, and a lack of
documentation regarding proper approval of cooperative agreement
expenditures. Specifically, we found:

  •	 since SAT officials did not provide copies of contracts, we could not
     assess the adequacy of SAT’s monitoring activities or whether the
     requirements in the contracts were fulfilled;

  •	 instances where the appropriate SAT official did not provide written
     approvals for expenditures;

  •	 expenditures for which SAT officials did not provide complete and
     adequate supporting documentation; totaling $177,517; as well as
     $303,995 in unsupported contractor costs;

  •	 unallowable expenditures relating to telephone charges and computer
     purchases that were loaned to NIJ officials, totaling $5,907;

  •	 financial reports did not reflect program income generated by the sale
     of accountable property acquired using cooperative agreement funds;

  •	 SAT officials did not maintain property records relating to the
     management, sale, and disposal of accountable property acquired
     using award funds, including the sale price or method used to
     determine the market value of the asset, which resulted in
     unsupported accountable property costs, totaling $72,776; and

  •	 unsupported indirect cost charges, totaling $23,065.




                                     24

Recommendations

We recommend that OJP coordinate with the SAT to:

1.	   Implement adequate formal accounting procedures in the event that
      SAT receives future awards.

2.	   Establish a general ledger that is capable of categorizing expenditures
      in order to compare to the approved budget in the event that SAT
      receives future awards.

3.	   Remedy the $177,517 in unsupported direct costs.

4.	   Remedy the $303,995 in unsupported contractor costs.

5.	   Remedy the $5,907 in unallowable telephone and computer costs.

6.	   Remedy the $23,065 in unsupported indirect costs.

7.	   Remedy the $72,776 in unsupported equipment costs.




                                     25

                                                              APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreements, and to determine
program performance and accomplishments. The objective of the audit was
to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) cooperative agreement expenditures,
including personnel and indirect costs; (4) budget management and control;
(5) matching; (6) property management; (7) program income; (8) financial
and progress reports; (9) cooperative agreement requirements;
(10) program performance and accomplishments; and (11) monitoring of
subgrantees and contractors. We determined that matching costs were not
applicable to this audit.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
date of cooperative agreement 2006-IJ-CX-K016 on September 14, 2006,
through January 3, 2012. This was an audit of the OJP cooperative
agreements 2006-IJ-CX-K016 and 2009-IJ-CX-K017 awarded to the
Sheriffs’ Association of Texas (SAT). The SAT has drawn down a total of
$5,089,642 in cooperative agreement funds through January 3, 2012.

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and the award documents.

     In conducting our audit, we performed sample testing in three areas,
which were cooperative agreement expenditures (including personnel
expenditures), Financial Reports, and Progress Reports. In this effort, we
employed a judgmental sampling design to obtain broad exposure to
numerous facets of the awards reviewed, such as dollar amounts,
expenditure category, or risk. However, this non-statistical sample design


                                      26

does not allow a projection of the test results for all cooperative agreement
expenditures or internal controls and procedures.

       In addition, we evaluated internal control procedures, performance to
cooperative agreement objectives, cooperative agreement drawdowns,
program income, property management, indirect costs, and evaluated the
recipient’s monitoring of subrecipients. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer based data was not significant to our objective.




                                      27

                                                                      APPENDIX II


           SCHEDULE OF DOLLAR-RELATED FINDINGS4



QUESTIONED COSTS:                                                 AMOUNT         PAGE

  Unsupported Direct Cost Expenditures                             $177,517         11


  Unsupported Contractor Cost Expenditures                          303,995         11


  Unallowable Telephone and Equipment Cost                             5,907        12

  Expenditures


  Unsupported Indirect Cost Expenditures                              23,065        13


  Unsupported Equipment Cost Expenditures                             72,776      14-15


TOTAL QUESTIONED COSTS:                                          $ 583,260

TOTAL DOLLAR-RELATED FINDINGS                                    $ 583,260




      4
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                           28

                                                                   APPENDIX III

                   DETAILED UNSUPPORTED COSTS

    UNSUPPORTED COSTS RESULTING FROM DIRECT TRANSACTION TESTING
     GRANT               TRANSACTION             DATE                  AMOUNT
 2006-IJ-CX-K016     Employee A               12/31/2007              $   4,167
 2006-IJ-CX-K016     ELSAG North America      12/31/2008                 23,030
 2006-IJ-CX-K016     Hyatt Regency            03/26/2007                 48,555
 2006-IJ-CX-K016     Hyatt Regency            03/26/2007                 22,000
 2006-IJ-CX-K016     Hyatt Regency            03/26/2007                 77,764
 2006-IJ-CX-K016     Individual A             03/28/2008                  2,002
                                     TOTAL UNSUPPORTED COSTS:         $177,517


                  UNSUPPORTED COSTS INVOLVING CONTRACTORS
     GRANT              TRANSACTION                 DATE               AMOUNT
 2006-IJ-CX-K016     Contractor A                09/21/2007           $  13,622
 2006-IJ-CX-K016     Contractor B                12/21/2007              45,000
 2006-IJ-CX-K016     Contractor C                05/22/2008              18,963
 2006-IJ-CX-K016     Contractor D                07/11/2008               7,742
 2006-IJ-CX-K016     Contractor E                12/05/2008              12,000
 2006-IJ-CX-K016     Contractor F                03/04/2009               5,833
 2006-IJ-CX-K016     Contractor F                11/05/2009              46,667
 2006-IJ-CX-K016     Contractor G                12/14/2009              42,557
 2006-IJ-CX-K016     Contractor H                03/04/2010               7,606
 2006-IJ-CX-K016     Contractor G                05/20/2010              60,671
 2009-IJ-CX-K017     Contractor F                05/20/2010               5,833
 2009-IJ-CX-K017     Contractor F                10/19/2010               5,833
 2009-IJ-CX-K017     Contractor I                05/31/2011              20,000
 2009-IJ-CX-K017     Contractor F                07/12/2011               5,833
 2009-IJ-CX-K017     Contractor F                08/12/2011               5,833
                                        TOTAL UNSUPPORTED COSTS:      $303,995


                         UNSUPPORTED EQUIPMENT COSTS
                                                         AMOUNT LISTED      AMOUNT
                                                           IN GENERAL      QUESTIONED
    GRANT              TRANSACTION             DATE          LEDGER
2009-IJ-CX-K017    Silver Lining Aviation   02/16/2010     $ 72,376        $ 36,188
2009-IJ-CX-K017    Silver Lining Aviation   04/08/2010       73,176          36,588
                                                TOTAL UNSUPPORTED COSTS:   $72,776




                                            29

                  UNALLOWABLE PHONE AND COMPUTER COSTS
                                                 AMOUNT LISTED    AMOUNT
                                                  IN GENERAL     QUESTIONED
    GRANT             TRANSACTION      DATE         LEDGER
2006-IJ-CX-K016   AT&T Mobility     04/20/2010     $ 1,089         $   313
2006-IJ-CX-K016   AT&T Mobility     12/14/2009         655              42
2006-IJ-CX-K016   AT&T Mobility     05/20/2010         744              69
2006-IJ-CX-K016   AT&T Mobility     06/17/2010         747              73
2006-IJ-CX-K016   AT&T Mobility     07/19/2010         776              69
2006-IJ-CX-K016   Verizon           01/11/2008          79              79
2006-IJ-CX-K016   Verizon           02/05/2008          78              78
2006-IJ-CX-K016   Verizon           03/05/2008          78              78
2006-IJ-CX-K016   Verizon           04/10/2008          79              79
2006-IJ-CX-K016   Verizon           05/23/2008          79              79
2006-IJ-CX-K016   Verizon           06/12/2008          88              88
2006-IJ-CX-K016   Verizon           07/15/2008          79              79
2006-IJ-CX-K016   AT&T Mobility     08/01/2008         362              91
2006-IJ-CX-K016   Verizon           08/13/2008          64              64
2006-IJ-CX-K016   AT&T Mobility     10/03/2008         457             125
2006-IJ-CX-K016   AT&T Mobility     10/30/2008         580              60
2006-IJ-CX-K016   AT&T Mobility     12/05/2008         559              60
2006-IJ-CX-K016   AT&T Mobility     01/08/2009         545              62
2006-IJ-CX-K016   AT&T Mobility     01/29/2009         544              60
2006-IJ-CX-K016   AT&T Mobility     03/04/2009         491              60
2006-IJ-CX-K016   AT&T Mobility     04/01/2009         437              60
2006-IJ-CX-K016   AT&T Mobility     04/28/2009         435              60
2006-IJ-CX-K016   AT&T Mobility     05/27/2009         514              31
2006-IJ-CX-K016   AT&T Mobility     07/02/2009         430              41
2006-IJ-CX-K016   AT&T Mobility     07/30/2009         455              41
2006-IJ-CX-K016   Verizon           08/06/2009          63              63
2006-IJ-CX-K016   AT&T Mobility     08/27/2009         470              41
2006-IJ-CX-K016   Verizon           09/03/2009          63              63
2006-IJ-CX-K016   Verizon           10/01/2009          63              63
2006-IJ-CX-K016   AT&T Mobility     10/01/2009         613              41
2006-IJ-CX-K016   Verizon           11/05/2009          63              63
2006-IJ-CX-K016   AT&T Mobility     11/05/2009         533              41
2006-IJ-CX-K016   Verizon           12/07/2009          63              63
2006-IJ-CX-K016   AT&T Mobility     12/07/2009         324              17
2006-IJ-CX-K016   AT&T Mobility     12/14/2009         655              42
2006-IJ-CX-K016   Verizon           01/07/2010          63              63
2006-IJ-CX-K016   AT&T Mobility     01/14/2010         651              38
2006-IJ-CX-K016   Verizon           02/01/2010          63              63
2006-IJ-CX-K016   AT&T Mobility     02/10/2010         651              38
2006-IJ-CX-K016   Verizon           03/04/2010          63              63
2006-IJ-CX-K016   AT&T Mobility     03/18/2010         651              38
2006-IJ-CX-K016   Verizon           03/31/2010          63              63
2006-IJ-CX-K016   Verizon           04/29/2010          63              63
2006-IJ-CX-K016   Verizon           06/03/2010         205              63
2006-IJ-CX-K016   Verizon           07/01/2010         129              63
2006-IJ-CX-K016   Verizon           08/10/2010     $ 128          $     63


                                    30

                                                        AMOUNT LISTED     AMOUNT
                                                         IN GENERAL      QUESTIONED
      GRANT            TRANSACTION           DATE          LEDGER
2006-IJ-CX-K016           AT&T Mobility    08/17/2010        617              27
2006-IJ-CX-K016                 Verizon    09/01/2010        128              63
2006-IJ-CX-K016           AT&T Mobility    09/28/2010         56              56
2006-IJ-CX-K016                 Verizon    09/29/2010        128              63
2006-IJ-CX-K016           AT&T Mobility    10/19/2010         39              39
2006-IJ-CX-K016                 Verizon    11/03/2010         63              63
2006-IJ-CX-K016           AT&T Mobility    11/22/2010         38              38
2006-IJ-CX-K016           AT&T Mobility    12/15/2010        127             127
2006-IJ-CX-K016           AT&T Mobility    01/19/2011         38              38
2006-IJ-CX-K016           AT&T Mobility    02/15/2011         38              38
2006-IJ-CX-K016           AT&T Mobility    03/16/2011         39              39
2006-IJ-CX-K016           AT&T Mobility    04/13/2011         38              38
2006-IJ-CX-K016           AT&T Mobility    05/16/2011         38              38
2006-IJ-CX-K016           AT&T Mobility    06/15/2011         38              38
2006-IJ-CX-K016           AT&T Mobility    07/26/2011         38              38
2006-IJ-CX-K016           AT&T Mobility    08/22/2011         38              38
2006-IJ-CX-K016                 Verizon    09/08/2011        226              63
2006-IJ-CX-K016           AT&T Mobility    10/12/2011        482             121
2006-IJ-CX-K016   Dell Commercial Credit   12/21/2006       1881            1881
                                              TOTAL UNALLOWABLE COSTS:    $5,907




                                           31

                                                                     APPENDIX IV

                     OTHER REPORTABLE MATTERS

       The purpose of this section is to bring to OJP’s attention other matters
that we noted during the course of our audit. These matters are not part of
the audit report’s Findings and Recommendations section because they are
not directly related to the audit scope and objectives or because they are
less significant in nature. Thus, no response is necessary since this section
is for informational purposes only.

Sale of Aviation Equipment

      During our review of Property Management, we reviewed photographic
evidence of the pieces of accountable property and serial number for each
piece of accountable property so that we could reconcile these pieces to the
expenditures and supporting documentation already reviewed. As of
October 1, 2011, the SAT had transferred all federally accountable property
to a partner agency for continuation of the NIJ Aviation Program through
cooperative agreement 2009-IJ-CX-K019. SAT officials explained that the
partner agency had sold one of the pieces of accountable property after it
had been transferred from the SAT and provided documentation relating to
the sale of that property. We noted that the supporting documentation
indicates that this piece of accountable property was sold for $50,000. We
also reviewed the FFRs submitted to OJP by SAT’s partner agency. We
noted that through June 30, 2012, the partner agency had reported no
program income within their FFRs submitted to OJP.

Conference Expenditures

      According to the OJP Financial Guide, expenses incurred for food
and/or beverages and provided at training sessions, meetings, or
conferences must satisfy the following three tests: (1) the cost of the food
and/or beverages provided is considered to be reasonable; (2) the food
and/or beverages provided are incidental to a work-related event; and
(3) the food and/or beverages provided are not related directly to
amusement and/or social events. Regarding our analysis, we determined
that a reasonable amount for food was 150 percent of the GSA maximum
daily allowed per diem rate. 5 As shown in Exhibit 8, during transaction

      5
           We used 150 percent of the GSA maximum daily allowed per diem rate for each
locality in order to account for service charges and taxes that were charged at the
conferences.

                                           32

testing of expenditures for cooperative agreement 2006-IJ-CX-K016, we
identified three conferences where expenditures for meals provided to
conference attendees were in excess of what we consider as reasonable.

EXHIBIT 8: ANALYSIS OF CONFERENCE EXPENDITURES FOR
           COOPERATIVE AGREEMENT 2006-IJ-CX-K016
                                                MAXIMUM                          TOTAL
                                  AMOUNT       ALLOWED PER                     AMOUNT IN
                            CHARGED PER            GSA  DIFFERENCE             EXCESS OF
    DATE      TYPE OF MEAL    PERSON      GUIDELINES    PER PERSON              PER DIEM
NIJ Technology & Partnership Conference 6 (Garden Grove, CA)
Number of Participants: 400 7
Daily Per Diem Allowed Per GSA Guidelines: $64
 04/03/2007     Breakfast      $ 24          $ 18           $ 6                  $ 2,435
 04/03/2007       Lunch          50            27             23                   9,017
 04/04/2007     Breakfast        24            18              6                   2,350
 04/04/2007       Lunch          50            27             23                   9,017
 04/05/2007     Breakfast        9             18            N/A                   N/A
 04/05/2007       Lunch           -            27            N/A                   N/A
NIJ Applied Technologies Conference (Point Clear, AL)
Number of Participants Reported: 300
Daily Per Diem Allowed Per GSA Guidelines: $39
 03/18/2008     Breakfast      $ 34          $ 11           $ 23                 $ 6,976
 03/18/2008       Lunch          53            17             37                  10,977
 03/19/2008     Breakfast        38            11             28                   8,327
 03/19/2008       Lunch          48            17             32                   9,527
 03/20/2008     Breakfast        16            11              6                   1,725
 03/20/2008       Lunch           -            17            N/A                    N/A
National Regional Planning Council Conference (Orlando, FL)
Number of Participants Reported: 47
Daily Per Diem Allowed Per GSA Guidelines: $49
 02/12/2009     Breakfast      $ 41          $ 14           $ 28                 $ 1,314
 02/12/2009       Lunch          62            20             43                   2,007
 02/13/2009     Breakfast        33            14             20                     925
 02/13/2009       Lunch          54            20             34                   1,617




       6
          SAT officials only provided a quotation for the expenditures concerning the NIJ
Technology and Partnership Conference. Therefore, we used the quoted amount in our
analysis.
        7
          For the NIJ Technology and Partnership Conference, SAT was not required to
report in GMS the number of participants at this conference. Therefore, we estimated the
number of participants using the information provided in the quotation.

                                            33
                                                                                                                          APPENDIX V
                                        SHERIFFS’ ASSOCIATION OF TEXAS
                                        RESPONSE TO DRAFT AUDIT REPORT

SHERIFFS' ASSOCIATION OF TEXAS
Steve M. Weotbro<>k. Executive D ire<'or
160 1 SoothIH·1S
                                                                                                                           ,..,. Ii,.
AuMin. T, ... 737-11·1101
!'boo" SI1 ... S· $I&1
F.. , Sll ... S-0111
                                                November 5, 2012

Sh.riIT. col..... n CoU"ty
L« kh.rt. T.,. ..                               David M. Sheeren
~1ax<y Cet\lono
                                                Regional Audit Manager
FIr.t \' ic~Pre,ld. n'                          Iknver Regional Audit Office
SheriIT, G"'l8 Coun'y                           Office of the Inspector General
Lo"gviow. T.",.
                                                U.S. Department of Justice
... . J . • Andy" Loud .. b ock                 1120 Lincoln, Suite 1500
Sec<>nd Vice-Pr .. ideD'
SheriIT. Jocl<",n Coun'y                        Denver, CO 80203
 Ed" .. T....

 R. P. · P.." B......". k                       Subject:     Response to the Office of the Inspector General's Draft Audit
 Third Vice-Pr...Jd<n'                                       Report, Office of Justice Programs, Nationai lnstitutc of Justice,
 S heriff, Von Z.M, Coun'y
 Can ",,, T.",.                                              Cooperative Agreement Awarded to the Sheriffs- Association of
                                                             Texas, Austin, Texas, #2006"IJ·CX· K016 and #2009- IJ-CX­
 Don.old So ....U
 S<q,,<on,_At_.......,.
                                                             K017.
 S1><.riff.Grime. Coun'y
 "'n d..",,, T ....                             Dear Mr. Shecren:
 J. W. Jankow,ki
  Imm.diate Pu , Pr"",ident                     Thank you for this opportunity to respond to the draft audit report Audit of
  Sheriff. W.. hington CoU"'y
  Brenham, T....                                the Office of .lustice Programs National Inslilufe of Jus/ice Cooperative
                                                Agreemenls Awarded 10 the Sheriffs' Associalion of Texas. Austin. Texas
  Gr .,Toylor
  Director
                                                by the U.S. Department of Justice (DOJ), Office of the Inspector General
  Sh.riff.... ndo....,n Coun'y                  (OIG), Dt:nvt:r Regional Audit Office to the Office of Justice Programs
  P, I."i"". To. ..                             (OJP), related to the National institute of Justice (N IJ) cooperative
  RIchard Will.                                 agreement numbers 2006-IJ-CX·K016 and 2009·]J-CX·KOI7. We look
  nir« ,. r                                     forward to resolving the issues noted in the audit report.
  Sh.rilf, Bailoy County
  Mol .., -. Tex ..
                                                General Comments
  Jo e-10<le· C. Z",'uk,
  Oiroct.,.­
                                                The draft audit report contains seven recomme ndations and $583,260 in
  Shoriff.n.Wiu Couflty                         questioned costs. The questiom:d costs were primarily attributable to
   Cuero. Te".                                  inadequate documentation provided to the auditors at the time of the audit.
                                                This doc umentation is being provided by SAT as referenced in SAT's
   Diroo,or                                     response to the recommendations and questioned costs below. Inadequate
   Sh.,.ilf. MOrTi. County
   Ooing<rf.. ld. T ....                        documentation was provided at thc timc of the audit because grant funded
                                                personnel for the awards were no longer employed by SAT as of July
   " "IIli.om"Oint"" ~I<:D<lno1d, Jr.
   D;""ct.,..                                   20 II. External accountants employed by SAT to gather the infonnation
   SI><riITT..",n Coun'y                        for the audit were not familiar with the requested documents or with the
   S.nde""" T ....                              extent of documentation needed to properly support the transactions.
   L an')' G. Spenc.                            Further, SAT received numerous additional requests for documentation
   o.opl>ln                                     after the audit onsite visit concluded, making coordination to provide the
   Sh.riff, willO<}' County
   R' ymo.,!,-ill .. T ....                     documentation difficult. We believe that this is remedied now by
                                                including in our response adequate documentation to support the
   Con, • ...,                                  questioned costs.
    inf<>@t,.~'iff._o.g


    W eb, ;,.,
    w~·,," _ '''''''riff.,o'g


                                         IH'~   Annual Training Conference, J"ly 20-'1$ , '101$ " Corpu. Christi. T eus




                                                                            34

                        SAT Re5ponses to Specific Recommendations

Recommendation 1: Implement adequate fonnal accounting procedures in the event that SAT
receives future awards.

Response;
While management believes that accounti ng proct.-dures for SAT's current activities arc
adequate. management would implement adequate fonnal accounting procedures should SAT
plan on receiving future fedcral awards.


Uccommcndation 2: Establish a general ledger that is capable of categorizing expenditures in
order to compare to the approved budget in the event that SAT receives future awards.

Response
The ge neral ledger is currently capable of categorizing expenditures in order to compare to the
approved budget. Budget versus actual expenditure reports ""-ere prepared for Award Number
2009-I1-CX-KOI6. However, budgct versus actual cxpenditure reports were not prepared for
Award Number 2009-IJ-CX-KOI7. The rcport for 2009-lJ-CX-KO I7 has now been prepared and
is being submitted with this response. St.'\! Attachment I.

Recommendation 3: Remedy the $177,517 in unsupported direcl costs.

Response
SAT concurs thai adcquatc supporting documentation was not provided to the auditors during the
audit fieldwork for six transactions totaling $177,517. The supporting documentation is being
provided as referenced in Attachment 2.

Recommendation 4: Remedy the $303,995 in unsupported contmctor costs.

Response
SAT concurs thai contmcts wcre not provided to the auditors during the audi t fieldwo rk fo r 15
transactio ns totaling $303 ,995. The contracts and other pertinent information arc being provided
as referenced in Attachment 3. As per Attachment 3, one of the contract documents could nOI be
located, but a copy has been requcsted from the contractor, and will be provided when received.

Recommenda tion 5: Remedy the $5,907 in unallowable telephone and computer costs.

Response
SAT program management does not concur that this is an unallowable cost. SAT program
management purchased a Blackberry initially for use by the NIJ grant management staff to
improve SAT's abili ty to deliver programmatic requirements in a timely fashion through timely
interaction with NlJ grant management. The initial Blackberry was latcr replaced by a smart
phone which was utilized by the NlJ Program Manager to demonstrate smart phone technology
as a low cost mobile computing platform for law enforccment, demonstrate NIJ 's smart phone
applieation~, and demonstnlte its usc in the Low Cost Aviation Technology Program. The laptop
was purchased solely to enhance program delivery by making slide presentations for the various




                                               35

conferences where NU's programs were presented as well as their djsplay at various law
enforcement trade shows. Approval of the expenditures by NIJ grant management was
demonstrated by their continued acceptance and use ofthe equipment. This cost does not exceed
10% of the budget, and therefore a GAN is not required. The expenditure was in full compliance
with the wishes of the NIJ program manager. All equipment has been returned.

Recommendation 6: Remedy the $23,065 in unsupported indirect costs.

Response
On August 29, 20 12 SAT refunded $ 11 , 156 indirect costs to OJP pursuant to the close-out of
Award 2009-lJ-CX-KOI7. That refund serves to reduce the above questi oned amount. The
discrepancy noted in this recommendation arose because SAT mis-interpreted the direct cost
base to which the indirect cost rate was applied. However, budgeted indirect costs were $73,41 2
and only $46,78 1 was claimed and received by SAT. SAT wi ll work with OlP to determine
proper resolution of the questioned costs.

Recommendation 7: Remedy the $72,776 in unsupported equipment costs.

Response
SAT concurs that adequate documentation for the disposition of this piece of eq ui pment was not
provided to the auditors during the audit field work. The piece of equipment in question was
damaged beyond repair and deemed to be a total loss. The insurer determined the market va lue
of the property at the time of the loss, and insurance proceeds were received. SAT will change
the classification of this amount to program income in the Federal Financial Report if that is
needed or desired and if the OJP would allow a change to the FFR. Documentation evidencing
disposition of the property is provided as referenced in Attachment 4


Thank you for your consideration of thi s response. Please feel free to contact me at 512-445-
5888 with any questions or if anything else is needed to clarify or enhance the information
provided. Again, we look forward to resolving these issues.

Sincerely,


~~~
Steve Westbrook
Executive Director

Attachments:
    Attachment I -   Budget Vs. Actual Report - 2009-IJ-CX-KO I7
    Attachment 2 -   Unsupported Direct Cost Expenditures and List of Documents Attached
    Attachment 3 -   Unsupported Costs Involving Contractors and List of Documents Attached
    Attachment 4 -   Unsupported Equipment Costs and List of Documents Attached




                                               36

SHERIFFS. ASSO CIATION OF                                                         TExAs
Steve M. Westbrook, E:xocu. ive          Di~,or

tfm _        IH·I!                                                                                                        ..... lOt.
' '.,<In.T....   7J ~1 · 2 50l
Phon • • 112"'l_      S"1
f .. , 1 12 .... l '0211

                                                 November 14, 2012
Daniel C. IA ..

Sher ilf, Caldwell CoU"t,
Loc kh. rt, T ....                               David M. Shccrcn
Moxe, C.,.llano                                  Regional Audit Manager
flrs t Vio",' reslden,                           Denver Regional Audit Office
Sher iff, G",U Count)'
L>n S" ...... T• • • •                           Office of the lnspl-ctor General
                                                 U.S. Department of Justice
 A.I. -Andy" Loud .. b.tk
                                                 1120 Li ncoln, Suite I SOD
 ~ and Vlu-Pr .. id.".
 Sheriff. )"''"0" CoU"'Y                         Denver, CO 80203
 Edn .. T....

 R. P . -P,,"llumeu, Jr.                         Subject:     Additional Document Submitted
 Third Viu-President                                          Re: Response to the Office of the Inspector General 's Draft
 Sho. ";!T, V'n Z",d,Coun 'J
 Conton, T....                                                Audit Report, Office of Justice Programs, National Institute of
                                                              Justice, Cooperative Agreement Awarded to the Sheri ITs'
 OonlldS.,.,·.u
 S<o- gNll' _A. _Artn$                                        Association of Texas, Austin, Texas, #2006-IJ-CX-KO I6 and
 Sheriff: Gri",., Coun'y                                      #2009-IJ-CX-K017.
 And«wn. T.u,

  J. ,"v. J ......... oo                         Dear Mr. Sheeren:
  IIDm..!i• •• P ... Pre>id.m
  Sh<orill, Wllruni''''' Coun'y
  B.... nh.m, T n ..                             Thank you for this opponunity to add a document to the information
                                                 contained in SAT's response ofNovembcr 5, 2012 to the draft audit reJXln
  CresT. )"lor
  Dir ~o r
                                                 Audil of the Office of Justice Programs National Instilllte of Justice
  Sh. riff: Ando,,,,n       c, u n t ~           Cooperath'e Agreements Awarded If) Ihe Sheriff.~' As~·ocialion of Texas.
   P.I." ..... Tex ..                            Austin. Texas by thc U.S. Dcpanment of Justice (001), Office of the
   Ri chard \\->11,                              Inspector General (OlG), Denver Regional Audit Office to the Office of
   Direct"'"                                     Justice Programs (OJP), related to the National Institute of Justice (NIJ)
   Sh ~ ill.lhil.y    County
   Mul.. oo.. Tu ..                              cooperative agreement numbers 2006-IJ-CX-KOI6 and 2009-lJ-CX-KOI7.
   J oe -Jod.- C.      Z ..
                        .,.
                       ky
                                                 The document being submitted was noted as missing in SAT's response to
   Din<,OT
   Sheriff. D,Witt c,un'y                        the draft audit report, as per the following excerpt from that resJXlnse. The
   Cuero. Tn ..
                                                 excerpt is shown in italics:
   Ja ck Mutin
   Dir.ctor                                      Recommendation 4; Remedy the $303.995 in IInsupported cOlllraclor
   Sheriff. 1.10<,;" Coun',
   D.i" ~.. ld. T ....                           COSI~·.


    \\-LIIiam "Oint"" M cDonold, Jr.
    Dineto.                                      Resoonse
    Sheriff. T er ... l] County                  SAT concurs that CO!1lra("/~· were not provided to the auditors during the
    Sand • ....,n, Tn ..
                                                 oudil fieldwork for 15 IronSOC lions fotaling $303,995. The conlra'·/~· and
    Lon")" G. Spence                             a/her pertinent information are being pravided as referenced in
    e h ' pl.oln                                 Allachment 3. As per Altachmelll 3, one of the contracl documenls could
    S~.riff, W iIlO<)' Coon' y
    l!.oy"",nd"'II., T ....                      nOI he loco/ed, bUI a copy has been requested from the contraClOr, ond
                                                 will he provil/ed when reeeh'ed.
    Conu,""
    info@' .. ... ,ill•.org

     W .b,i",
     ..... ww.""be,iJf, .or'

                                         l~5'~   Annual Training Conference, July I!o-I!S, I!OU - Corpus Christi, Texas




                                                                            37

    Update to SAT Response to Recommendation 4

    The copy of the contract document referred to above has been located and is being provided
    as referenced in Attachment 3-Updated.


Thank you for your consideration of this additional information. Please reel free to contact me at
512-445-5888 with any questions or if anything else is needed to clarify or enhance the
information provided. Again, we look forward to resolving these issues.

Sincerely,


dt:-~
Steve Westbrook
Executive Director

Attachments:
    Attachment 3-Updated
    3.9-Contractor F




                                              38

                                                                                       APPENDIX VI
                 OFFICE OF JUSTICE PROGRAMS’
               RESPONSE TO DRAFT AUDIT REPORT

                                                 U.S. Department of Justice

                                                 Office ofJustice Programs

                                                Off/ce ofAudit, Assessment, and Management

 ,
                                                W""'ing_ D.C. 2MJI


     NOV -9 2012.



MEMORANDUM TO;               David M. Sheeren
                             Regional Audit Manager
                             Denver Regional Audit Office
                             Office of the Inspector General

FROM:                        Maurcen..4._ Henneberg
                             Director ~~e;

SUBJECT:                     Response to the Draft Audit Report, Audit ofthe Office ofJustice
                             Programs, National Institute ofJus/ice. Cooperative Agreements
                             Awarded /0 the Sheriffs Association of Texas, Austin, Texa~

This memorandum is in response to your correspondence, dated October 15, 2012, transmiUing
the subject draft audit report for the Shcrlfrs Association of Texas (SAT). We consider the
subject report resolved and request written acceptance of this action from your office.

The draft audi t report contains seven reconunendations and $583,260 in questioned co~ts. The
following is the Office of lu~1ice Programs' (Ol P) analysis of the draft audit report
recommendations_ For eaw of review, the recommendations are restated in bold and are
followed by OUf response.

I.      \Ve recommend that OJP coordinate with SAT to implement adequate formal
        accounting procedures in the event that SAT rcceives future awards.

        We agree with the recommendation. We will coordinate with SAT to obtain a copy of
        its fonnal accounti ng procedures, which have been implemented by the organization.

2.      We recommend that OJP coordinate with SAT to establish a generallcdger that is
        capable of categorizing expenditures in ordcr to compare to the approved budget in
        the event that SAT receives future awards.

        We agree with the recommendation. We will coordinate with SAT to obtain a copy of its
        revised gcncrallcdgcr, which is capable of categorizing expenditures by approved budget
        ci\tegor:y.




                                              39

3.     We recommend that Q,'P coordinate with SAT to remedy the S177,517 in
       unsupported direct costs.

       We agree with the recommendation. We will coordinate with SAT to remedy the
       $\77,5\7 in unsupported direct costs.

4.     We recommend tbat OJP coordinate with SAT to remedy the $303,995 in
       unsupported contractor ClIst~.

       We agree with the recommendation. We will coordinate with SAT to remed y the
       $303,995 in unsupported contractor costs.

S.     We recommend that OJP coordinate with SAT to remedy the $5,907 in unallowable
       telephone and computer costs.

       We agree with the recommendation. We will coordinate with SAT to remedy the $5,907
       in questioned telephone and computer costs.

6.     We recommend that O.TP coordinate with SAT to remedy the $23,065 in
       unsupported indirect costs.

       We agree with the recommendation. We will coordinate with SAT to remcdy the
       $23,065 in unsupported indirect costs.

7.     We recommend that OJP coordinaje with SAT to remcdy the S72,776 in
       unsupported equipment costs.

       We agree with the recommendation. We wi ll coordinate with SAT to remedy the
       $72,776 in unsupJX}rted equipment costs.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnalion, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, On (202) 616-2936.

ce:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Portia Graham
       Acting Office Director, Office of Operations
       National Institute of Justice




                                               2




                                             40

cc:   Charlene Hunter
      Program Analyst
      National Institute of Justice

      Jack Harne
      Grant Program Manager
      National Institute of Justice

      Michael O 'Shea
      Program Manager
      National Institute of Justice

      Louise Duhamel, Ph.D.
      Acting Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Di vis ion

      011' Executive Secretariat
      Control Number 20121653




                                             3




                                            41

                                                             APPENDIX VII

                  OFFICE OF THE INSPECTOR GENERAL

                 ANALYSIS AND SUMMARY OF ACTIONS

                   NECESSARY TO CLOSE THE REPORT



      The Department of Justice (DOJ), Office of the Inspector General (OIG)
provided a draft of this audit report to the Office of Justice Programs (OJP)
and the Sheriffs’ Association of Texas (SAT). The SAT’s response is
incorporated in Appendix V of this final report. OJP’s response is
incorporated in Appendix VI of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to resolve
the report.

Summary of Actions Necessary to Close the Report

1.	   Resolved. OJP agreed with our recommendation that the SAT
      implement adequate formal accounting procedures in the event that
      SAT receives future awards. OJP stated in its response that it will
      coordinate with the SAT to obtain a copy of its formal accounting
      procedures which have been implemented by the organization. In its
      response SAT officials concurred with this recommendation. The SAT
      stated that while management believes that accounting procedures for
      SAT’s current activities are adequate, SAT’s management would
      implement adequate formal accounting procedures should SAT plan on
      receiving future federal awards.

      This recommendation can be closed when we receive evidence that the
      SAT has implemented adequate formal accounting procedures in the
      event that SAT receives future awards.

2.	   Resolved. OJP agreed with our recommendation that the SAT
      establish a general ledger that is capable of categorizing expenditures
      in order to compare to the approved budget in the event that SAT
      receives future awards. OJP stated in its response that it will
      coordinate with SAT to obtain a copy of its revised general ledger,
      which is capable of categorizing expenditures by approved budget
      category. In its response, the SAT stated that the general ledger is
      currently capable of categorizing expenditures in order to compare to
      the approved budget. The SAT also stated in their response that
      budget versus actual expenditure reports were not prepared for
      cooperative agreement 2009-IJ-CX-K017. The SAT provided a budget


                                     42

      versus actual expenditures report for cooperative agreement
      2009-IJ-CX-K017 in their response.

      We reviewed this documentation and determined that it does not
      adequately address our recommendation. The report provided
      appears to be contrary to explanations provided by SAT officials during
      our analysis. This recommendation can be closed when we receive
      evidence that the SAT has established a general ledger that is capable
      of categorizing expenditures in order to compare to the approved
      budget in the event that SAT receives future awards.

3.	   Resolved. OJP agreed with our recommendation to remedy $177,517
      in unsupported direct costs. OJP stated in its response that it will
      coordinate with the SAT to remedy the $177,517 in unsupported direct
      costs. In its response, the SAT concurred with recommendation and
      provided additional support for the six unsupported transactions. Our
      responses for these transactions and the additional supporting
      documentation submitted by the SAT in their response are detailed
      below.

      Employee A

      In the SAT’s response, it explained that the $4,167 transaction for
      Employee A was a payroll transaction and attached documentation
      showing the transaction journal entries. However, the SAT did not
      provide a timesheet supporting the time that should have been
      charged to cooperative agreement 2006-IJ-CX-K016. Therefore, we
      determined that the $4,167 in payroll charges to be unsupported.

      ELSAG North America

      In regards to the transaction for ELSAG North America, we questioned
      this transaction as unsupported because we only received a quotation
      and did not receive an invoice for the transaction. In the SAT’s
      response, it included supporting documentation including the invoice
      for the transaction. However, we noted inconsistencies between the
      delivery date of the equipment provided, the date of the quotation,
      and the date of the invoice. Therefore, without any further
      documentation or explanation from SAT officials regarding this
      transaction, we determined that the $23,030 in charges were
      unsupported.




                                     43

      Hyatt Regency

      In regards to the transaction for Hyatt Regency, we questioned this
      transaction as unsupported because we only received a quotation and
      did not receive an invoice for the transaction. In the SAT’s response,
      it included supporting documentation including the invoice for the
      transaction. In the invoice, the amount paid is shown based on the
      amount in the quotation. However, there were no detailed invoices
      showing what was paid for, including the dates that the goods and
      services were incurred, in comparison with the quotation that was
      already provided. Therefore, without further detailed information
      regarding what was provided and the dates that they were provided,
      we determined that the transaction charges, totaling $148,319 were
      unsupported.

      Individual A

      In SAT’s response, it included a travel advance for Individual A to
      transport aviation equipment. However, there was no documentation
      indicating the dates of travel or any confirmation that the aviation
      equipment had been delivered. Therefore, without this
      documentation, we determined that the $2,002 travel advance charges
      were unsupported.

      After considering the SAT’s response to questioned costs for
      unsupported direct costs, we determined that the SAT has not
      provided adequate documentation to support the reduction of any of
      the questioned costs noted in our audit due to unsupported
      expenditures. This recommendation can be closed when we receive
      evidence that the OJP has remedied the $177,517 in questioned costs
      identified as unsupported.

4.	   Closed. We recommended that OJP remedy the $303,995 in
      unsupported contractor costs. OJP agreed with our recommendation
      to remedy $303,995 in unsupported contractor costs. OJP stated in its
      response that it will coordinate with the SAT to remedy the $303,995
      in questioned telephone and computer costs. The SAT also concurred
      with the recommendation and provided documentation supporting the
      nine contracts included in questioned costs.

      We reviewed this documentation and determined that it adequately
      addresses our recommendation. Therefore, this recommendation is
      closed.


                                     44

5.	   Resolved. OJP agreed with our recommendation to remedy $5,907 in
      unallowable telephone and computer costs. OJP stated in its response
      that it will coordinate with the SAT to remedy the $5,907 in questioned
      telephone and computer costs. The SAT stated in its response that it
      did not concur with this recommendation. In their response, SAT
      stated that the approval of the expenditures by NIJ grant management
      was demonstrated by their continued acceptance and use of the
      equipment. The SAT also stated that these costs were within 10
      percent of the cooperative agreement budget, the expenditures were
      in full compliance with the wishes of the NIJ program manager, and
      that all equipment purchased through these expenditures had been
      returned. However, we do not consider the “use of equipment” to be
      adequate documentation that the equipment was approved to be used
      in a manner different than that specified in the approved grant budget.
      Because SAT officials did not provide documentation showing that the
      revised use of the equipment was officially approved by OJP, we
      continue to question the $5,907 in telephone and computer costs that
      were not used in accordance with the use specified in the grant
      budget.

      This recommendation can be closed when we receive evidence that
      OJP has remedied the $5,907 in unallowable telephone and computer
      costs.

6.	   Resolved. OJP agreed with our recommendation to remedy the
      $23,065 in unsupported indirect costs. OJP stated in its response that
      it will coordinate with the SAT to remedy the $23,065 in unsupported
      indirect costs. In its response, the SAT concurred with the
      recommendation and explained that the SAT misinterpreted the direct
      cost base to which the indirect cost rate was applied. The SAT also
      stated in their response that on August 29, 2012, the SAT refunded
      $11,156 in indirect costs to OJP pursuant to the closeout of
      cooperative agreement 2009-IJ-CX-K017. However, the SAT did not
      provide documentation relating to the $11,156 refund. Therefore, we
      determined that the $23,065 in indirect costs were still unsupported.

      This recommendation can be closed when we receive evidence that
      OJP has remedied the $23,065 in unsupported indirect costs.

7.	   Closed. We recommended that OJP remedy the $72,776 in
      unsupported equipment costs. OJP agreed with our recommendation
      to remedy the $72,776 in unsupported equipment costs. OJP stated in


                                     45

their response that it will coordinate with the SAT to remedy the
$72,776 in unsupported equipment costs. In its response, the SAT
concurred with the recommendation and provided documentation
demonstrating the disposal of the equipment included in questioned
costs.

We reviewed this documentation and determined that it adequately
addresses our recommendation. Therefore, this recommendation is
closed.




                              46

